           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



 SUPPLEMENTAL SECURITY INCOME
PAYMENTS TO PARENTS OR RELATIVES
    NOT SUPPORTING CHILDREN


     December 2009   A-01-09-29113




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   December 28, 2009                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Supplemental Security Income Payments to Parents or Relatives Not Supporting
        Children (A-01-09-29113)


        OBJECTIVE
        The objective of our review was to assess the Social Security Administration’s (SSA)
        payment of Supplemental Security Income (SSI) to parents or relatives serving as
        representative payees for children they were not supporting.

        BACKGROUND
        The SSI program is intended to be a program of last resort. It is a nation-wide, Federal
        cash assistance program administered by SSA that provides a minimum level of income
        to financially needy individuals who are aged, blind, or disabled. 1

        Generally, residents of public institutions are not eligible for SSI payments. However, in
        some cases, SSI recipients under age 18 remain eligible for payments while residing in
        institutions. For example, children participating in educational or vocational training
        programs may remain eligible for payments while residing in institutions. In these
        cases, the children are not considered residents of public institutions for purposes of
        determining SSI eligibility—and remain eligible for SSI while residing in the institutions.
        Additionally, children residing in noninstitutional care, such as foster care homes, may
        remain eligible for SSI payments. Furthermore, while residing in the institutions or
        foster care homes, the children’s basic needs, such as food and shelter, may be
        provided by a third party—and not the children’s parents.

        Under the Individuals with Disabilities Education Improvement Act of 2004, all children
        with disabilities are entitled to a free, appropriate public education. 2 “If placement in a
        public or private residential program is necessary to provide special education and
        related services to a child with a disability, the program, including non-medical care and

        1
            The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
        2
            Pub. L. No. 108-446 §§ 612(a)(1) and 612(a)(10)(B), 20 U.S.C. §§ 1412(a)(1) and 1412(a)(10)(B).
Page 2 - The Commissioner


room and board, must be at no cost to the parents of the child.” 3 In addition, the
agencies placing children in foster care homes may provide food and shelter.

Furthermore, children residing in certain medical facilities receiving substantial Medicaid
or private health insurance payments on their behalf, may also remain eligible for SSI
payments. 4 However, in these cases, the children are only eligible for a reduced
Federal SSI payment of no more than $30. 5

To perform our review, we identified 1,512 disabled SSI recipients under age 18—as of
April 2009—who were not in the custody of the parents/relatives serving as their
representative payees. 6 The ZIP Codes of the representative payees did not match the
ZIP Codes of the SSI recipients' residential addresses. Therefore, they did not appear
to reside at the same address. In addition, according to the coding on SSA’s records,
these children were not residing in institutions or facilities that would subject them to the
$30 monthly payment.

We randomly selected 100 cases from this population to determine whether the
children’s parents/relatives provided support by contributing to the cost of care at the
institutions, residential schools, or foster care homes. 7 (For more information on our
scope, methodology, and sampling results, see Appendix B.)

RESULTS OF REVIEW
We found that some parents/relatives serving as representative payees received SSI
payments for children they were not supporting. Based on our review, we estimate that
approximately 320 children resided in institutions and their parents/relatives did not
contribute to the cost of care at the institutions. These parents/relatives received
approximately $8.3 million in SSI payments for children they were not supporting. In
addition, we estimate the Government could realize potential savings of about



3
    34 C.F.R. § 300.104.
4
  Medicaid is a jointly funded, Federal and State health insurance program for financially needy
individuals.
5
 The Social Security Act § 1611(e)(1)(B), 42 U.S.C. § 1382(e)(1)(B). In addition, many States provide an
additional cash benefit to supplement the Federal SSI payment. In some States, the supplement is
administered by SSA and included in the SSI check.
6
 Some individuals cannot manage their finances because of their age, mental, and/or physical
impairments. Therefore, Congress granted SSA the authority to appoint a representative payee, which
can be a person or an organization, to receive and manage benefits on an individual’s behalf. Generally,
children under age 18 have representative payees. The Social Security Act § 1631(a)(2),
42 U.S.C. § 1383(a)(2).
7
  Throughout the report, we refer to institutions, residential schools, and foster care homes as
“institutions.”
Page 3 - The Commissioner


$1.9 million per year if SSA limited these children to reduced SSI payments—similar to
how children residing in certain medical facilities are limited to a $30 Federal SSI
payment.

Furthermore, we were unable to determine whether parents/relatives contributed to the
cost of care for about 260 children residing in institutions. The parents/relatives of these
children received approximately $3.6 million in SSI payments and possibly did not
contribute to the children’s cost of care at the institutions.

                                                   Of the 100 children in our sample,
                Sample Results
                                                   •   59 resided in institutions and did not
     59 Not Supported by
     Parents/Relatives                                 appear to be supported by their
                                                       parents/relatives;
                    59%
                                                   •   17 resided in institutions, and we were
                                                       unable to determine whether the
                      17%    24%
                                                       parents/relatives provided support; and

     17 Unable to             24 Supported by
                                                   •   24 were supported by their
     Determine                Parents/Relatives        parents/relatives. 8


Children Residing in Institutions Not Supported by Their Parents/Relatives

In total, 59 children in our sample resided in institutions and did not appear to be
supported by their parents/relatives. Of the 59 children,

     21 resided in institutions full-time, and their parents/relatives—who did not contribute
      to the cost of care—received about $551,000 in SSI payments on their behalf while
      they resided in the institutions, 9 and

     38 resided in certain medical institutions before our review, and Medicaid or private
      health insurance contributed substantially to the cost of care. These 38 children
      were subjected to a reduced Federal SSI monthly payment of $30 while residing in
      the medical institutions. 10


8
 This includes (a) 12 children who resided in institutions and the parents/relatives provided support by
contributing to the cost of care and (b) 12 children who never resided in institutions while receiving SSI
payments. In these 12 cases, the custody information on SSA’s records was miscoded.
9
  The parents/relatives did not contribute the cost of care at the institutions for an average of 41 months
(or 3.4 years). The median was 41 months.
10
  As of May 2009, 37 of these children had returned to live with their parents/relatives and 1 was in
prison.
Page 4 - The Commissioner


The SSI program is intended to be a program of last resort. It is designed to provide a
minimum level of income to help individuals meet their basic needs for food, clothing,
and shelter. However, in 21 of our sample cases, parents/relatives received SSI on
behalf of children they were not supporting. If SSA limited these children to reduced
SSI payments—similar to the way children residing in certain medical facilities are
reduced to a $30 Federal payment—the SSI program could realize savings.
Specifically, if the Agency limited the children to a similar reduced $30 Federal SSI
payment, SSA could realize potential savings of about $126,000 over the next
12 months. 11 See Table 1 for potential savings to the SSI program.



         Table 1: Potential Savings to the SSI Program                          SSI Payments

     Amount SSA Will Continue to Pay over the Next 12 Months                       $133,875

     Amount SSA Would Pay over the Next 12 Months If
                           12                                                       $8,054
     Payments Were Reduced

     Potential Savings                                                             $125,821



Projecting our sample results to the population, we estimate that the Government could
save approximately $1.9 million per year if SSA limited these children to reduced SSI
payments. Payments under the SSI program are financed from the general fund of the
U.S. Treasury—which is financed through tax payments from the American public.
Therefore, SSA should ensure resources entrusted to the Government by the American
people are used in the public’s best interest. The parents/relatives in our review
continued to receive payments under the SSI program—which is intended to be a
program of last resort—even though the children’s basic needs—such as food and
shelter—were being provided at the institutions.




11
  Five of the 21 children had returned to live with their parents as of May 2009. The five children
received $25,000 in SSI payments while they resided in institutions. The 12 months of savings is based
on SSI payments to 16 children who were still residing in institutions as of May 2009.
12
  These savings include the $30 Federal SSI payment plus any applicable State supplement payments.
Many states provide an additional cash benefit to supplement the Federal SSI payment. In some States,
the supplement is administered by SSA and included in the SSI check. Of the 16 cases, 8 resided in a
State that provided a supplemental payment. For our calculation, we used the State supplement amounts
that children residing in certain medical facilities would likely receive. This included (a) five cases in
California in which we used the State monthly supplement of $20 and (b) three cases in Massachusetts in
which we used the State monthly supplement of $30.40.
Page 5 - The Commissioner


Table 2 shows that children in institutions who are eligible for a full SSI payment meet
similar criteria to children reduced to the $30 Federal SSI payment limit.

     Table 2: Comparison of the $30 Federal Payment Limit with SSI Payments
                        Made in Similar Circumstances
       $30 Federal Payment Limit                                 Full SSI Payments
 Child resides in a Medical facility—not          Child resides in an educational facility or
 with parent/relative                             foster care home—not with parent/relative
 Cost of care is paid for by Medicaid or          Cost of care is paid for by the school
 private health insurance                         district, State, or placement agency
 SSI payment is limited to $30 Federal            May be eligible for a full SSI payment
 payment

Unable to Determine Whether Parents/Relatives Provided Support

Of the 100 children in our review, an additional 17 resided in institutions full-time, but we
were unable to determine whether their parents/relatives provided support. 13 For these
17 cases, we researched information available on SSA’s systems, but were unable to
determine whether the parents/relatives contributed to the cost of care. However, if
placement in the institutions was necessary to provide special education and related
services, the cost of the program—such as non-medical care and room and board—
must be provided at no cost to the child’s parents. In addition, agencies placing children
in foster care homes may provide food and shelter. Therefore, the parents/relatives of
these 17 children received about $237,000 in SSI payments and possibly did not
contribute to the children’s cost of care in the institutions.

For example, in one case, an 11-year-old SSI recipient resided in an institution. Based
on available information in SSA’s systems, we were unable to determine who
contributed to the cost of care at the institution. However, we researched this institution
and found that it is publicly funded. Therefore, the relative serving as this child’s
representative possibly did not contribute to the child’s cost of care at the institution.
This child’s relative received about $17,000 for the period March 2007 through
May 2009 while the child resided in the institution.

See Appendix B for a summary by State for children residing in institutions who did not
appear to be supported by their parents/relatives.




13
  This includes (a) 13 children who resided in institutions as of May 2009 and received a total of
$206,000 in SSI payments while residing in institutions and (b) 4 children who resided in institutions
before May 2009 and received a total of $31,000 while residing in institutions but were no longer in the
institutions as of May 2009.
Page 6 - The Commissioner


Consideration of Parents’ Income and Resources

Generally, SSA considers a parent’s income when determining a child’s SSI eligibility
and/or payment amount when the parent and child live in the same household.
Therefore, for the children in our sample who resided in institutions, the Agency did not
consider the parents’ incomes for determining SSI eligibility and/or payment amounts
because the children and parents did not live in the same households.

For example, in one case, a 17-year-old SSI recipient resided in an institution for
children with autism in which a third party paid for his care. 14 He had not lived with his
father since at least July 2000. His father served as his representative payee and
received about $36,000 on behalf of his disabled son for the period July 2000 to
May 2009. 15 This child’s father earned about $98,000 in 2008—and this income did not
have any impact on his son’s SSI payments.

In another example, a 16-year-old SSI recipient had resided in an institution since
October 2006, and the school district paid for his care. His mother served as his
representative payee and received about $9,000 on behalf of her disabled son from
December 2006 to May 2009. 16 This child’s mother earned about $59,000 in 2008—
and this income did not impact her son’s SSI payments.

Although SSA does not consider a parent’s income when a child lives in an institution, it
must consider the parent’s income if the child returns to the parent’s home. In five of
our sample cases, it appeared the children had returned to live with their parents, but
SSA’s records were not properly updated. As a result, the Agency was not considering
the parents’ income for SSI purposes. We referred these five cases to SSA for possible
correction. As of November 2009, the Agency had updated four of the five cases and
assessed $20,236 in overpayments because of our audit.

For example, in one case, the child returned to her parents’ home in June 2006, but
SSA did not fully update its records. According to the Agency’s records, this 3-year-old
child lived alone and therefore SSA was not considering her parents’ income. As a
result of our referral, the Agency updated its records and posted an overpayment
of $1,283.




14
  The Mental Health and Mental Retardation Authority of Harris County in Houston, Texas, paid for the
child’s food and shelter.
15
  This recipient did not receive any SSI payments from April 2002 to September 2003. We did not
include these months in our calculation.
16
  Although the recipient resided in the institution since October 2006, he did not start receiving SSI
payments until December 2006.
Page 7 - The Commissioner


CONCLUSION AND RECOMMENDATION
The SSI program—financed by tax payments from the American public—is intended to
be a program of last resort to assist individuals with a minimum level of income.
However, we found that some parents/relatives serving as representative payees
received SSI payments for children they were not supporting. Although these payments
were made in accordance with SSA policy, we estimate that about 320 children resided
in institutions, and their parents/relatives did not contribute to the cost of care at the
institutions. These parents/relatives received approximately $8.3 million in SSI
payments on behalf of children they were not supporting. If these children were limited
to reduced SSI payments—similar to the way children residing in certain medical
facilities are reduced to a $30 Federal payment limit—we estimate that the Government
could realize potential savings of approximately $1.9 million per year.

Furthermore, we were unable to determine whether the parents/relatives provided
support to about 260 children residing in institutions. The parents/relatives of these
children received approximately $3.6 million in SSI payments and possibly did not
contribute to the children’s cost of care at the institutions.

We recommend SSA consider whether it is equitable to reduce SSI payments to
parents/relatives serving as representative payees for children they are not supporting.
If SSA determines it is equitable to do so, the Agency should seek the legislative
revisions needed to enact this change in policy.

AGENCY COMMENTS
SSA agreed with the recommendation. The Agency’s comments are included in
Appendix C.



                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology, and Sample Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                               Appendix A

Acronyms
C.F.R.        Code of Federal Regulations
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income

U.S.C.        United States Code
                                                                                      Appendix B

Scope, Methodology, and Sample Results
To accomplish our objective, we:

       Reviewed applicable sections of the Social Security Act and the Social Security
        Administration’s (SSA) regulations, rules, policies, and procedures.

       Obtained a file of disabled Supplemental Security Income (SSI) recipients—under
        age 18 as of August 2008—who were not in the custody of their parents/relatives.
        We then identified cases in which the recipients

         1. were still in current pay or under age 18 as of April 2009,

         2. had parents/relatives serving as their representative payees,

         3. were not subjected to a reduced $30 monthly payment, 1 or

         4. had ZIP Codes that did not match the ZIP Codes of their representative
            payees—indicating they may not reside at the same address as their
            representative payees.

       Identified a population of 1,512 disabled SSI recipients under age 18—as of
        April 2009—who did not appear to be supported by the parents/relatives serving as
        their representative payees.

       Selected a random sample of 100 cases from the population and analyzed each
        case to determine whether the parents/relatives contributed to their children’s cost
        of care at the institutions, residential schools, or foster care homes. Specifically,
        we:

          Reviewed available information on SSA’s systems, including the
           Supplemental Security Record and Modernized SSI Claims System. In
           addition, we reviewed Representative Payee Reports and SSI Facility
           Information and Determination Forms (Form SSA-8045).

          Calculated the amount of SSI payments the recipients received for cases in
           which the parents/relatives did not contribute to the child’s cost of care—or
           possibly did not contribute to the cost of care. We did not independently
           verify with the institutions whether the children were, in fact, living in the
           institutions.

1
 Children residing in certain medical facilities receiving substantial Medicaid or private health insurance
payments on their behalf may be eligible for a reduced Federal SSI payment of no more than $30.


                                                    B-1
    Determined whether SSA considered parents’ incomes for cases in which
     recipients returned to their parents’ homes. We referred cases to SSA field offices
     for possible correction in which it did not appear the Agency was considering the
     parents’ incomes.

    Calculated potential savings to the SSI program if recipients residing in institutions,
     residential schools, or foster care homes were limited to reduced SSI payments—
     similar to recipients residing in certain medical facilities who are reduced to a
     $30 Federal payment.

We performed our audit between May and September 2009 in Boston, Massachusetts.
We tested the data obtained for our audit and determined them to be sufficiently reliable
to meet our objective. The principal entity audited was the Office of Income Security
Programs under the Deputy Commissioner for Retirement and Disability Policy. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

SAMPLE RESULTS

                            Table B-1: Population and Sample Size
 Population                                                                          1,512
 Sample Size                                                                          100

 Table B-2: Children Residing in Institutions,
 Residential Schools, or Foster Care Homes and Their             Number of
                                                                                Dollars
 Parents/Relatives did not Contribute to the Cost of             Recipients
 Care
 Sample Results                                                           21      $551,077
 Point Estimate                                                          318    $8,332,282
  Projection Lower Limit                                                 223    $5,025,472
  Projection Upper Limit                                                 431   $11,639,092
 Note: All projections are at the 90-percent confidence level.




                                                   B-2
    Table B-3: Potential Annual Savings to the SSI
    Program if SSA Limited Payments to Children                        Number of
                                                                                            Dollars
    Residing in Institutions, Residential Schools, or Foster           Recipients
    Care Homes Reduced $30 Federal SSI Payments 2
    Sample Results                                                                16         $125,821
    Point Estimate                                                               242       $1,902,407
     Projection Lower Limit                                                      159       $1,154,793
     Projection Upper Limit                                                      348       $2,650,022
    Note: All projections are at the 90-percent confidence level.

    Table B-4: Children Residing in Institutions,
    Residential Schools or Foster Care Homes and We                    Number of
                                                                                            Dollars
    Were Unable to Determine Who Contributed to the                    Recipients
    Cost of Care
    Sample Results                                                                 17         $236,694
    Point Estimate                                                               257       $3,578,813
     Projection Lower Limit                                                      171       $1,977,418
     Projection Upper Limit                                                      365       $5,180,209
    Note: All projections are at the 90-percent confidence level.

    Table B-5: Summary by State: Children Residing in Institutions, Residential Schools
    or Foster Care Homes Not Supported—or Possibly Not Supported—by Their
    Parents/Relatives
                                           Number of
                         Number of
                                            Children
           State        Children Not                            Total         Percent
                                          Possibly Not
                         Supported                   3
                                           Supported
    California                 5                 0               5             13.2%
    North Carolina             3                 2               5             13.2%
    Florida                    1                 3               4             10.5%
    Massachusetts              3                 1               4             10.5%
    New York                   1                 3               4             10.5%
    Georgia                    0                 2               2              5.3%
    Mississippi                0                 2               2              5.3%
    South Carolina             1                 1               2              5.3%
    Texas                      2                 0               2              5.3%
    Indiana                    1                 0               1              2.6%

2
  Of the 21 children who resided in institutions, 5 resided in institutions before our review and had
returned to live with their parents as of May 2009. Therefore, we only calculated potential savings for the
16 children who still resided in institutions as of May 2009.
3
 For these 17 children, we were unable to determine whether the parents/relatives provided support by
contributing to the cost of care.


                                                      B-3
Table B-5: Summary by State: Children Residing in Institutions, Residential Schools
or Foster Care Homes Not Supported—or Possibly Not Supported—by Their
Parents/Relatives
                                       Number of
                     Number of
                                        Children
       State        Children Not                            Total         Percent
                                      Possibly Not
                     Supported                   3
                                       Supported
Louisiana                  1                 0               1              2.6%
Maryland                   0                 1               1              2.6%
Oklahoma                   0                 1               1              2.6%
Pennsylvania               1                 0               1              2.6%
Tennessee                  0                 1               1              2.6%
Wisconsin                  1                 0               1              2.6%
West Virginia              1                 0               1              2.6%
TOTAL                      21                  17           38           100.0%




                                         B-4
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      December 16, 2009                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel //s//
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Supplemental Security Income Payments to
           Parents or Relatives Not Supporting Children” (A-01-09-29113)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                           C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME PAYMENTS TO PARENTS OR RELATIVES
NOT SUPPORTING CHILDREN” (A-01-09-29113)

We have reviewed the draft report and our response to the recommendation is provided below.

Recommendation

Consider whether it is equitable to reduce Supplemental Security Income payments to
parents/relatives serving as representative payees for children they are not supporting. If it is
determined equitable to do so, the agency should seek the legislative revisions needed to enact
this change in policy.

Comment

We agree. By March 31, 2010, we will analyze this issue and determine if we should seek a
legislative revision.




                                                C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

Acknowledgments

In addition to those named above:

   Katie Greenwood, Auditor

   Kevin Joyce, IT Specialist

   Melinda Padeiro, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-29113.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
